40
I

C@OCKLE

* E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No, 19-1199
DON HIGGINSON,
Petitioner,
Vv.

XAVIER BECERRA, in his official capacity as the
Attorney General of California; City of Poway,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF THE CITIES OF MISSION VIEJO, OROVILLE, SOLANA BEACH, SOUTH PASADENA,
AND BARSTOW, AND THE TOWN OF YUCCA VALLEY, CALIFORNIA, IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5883 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

-~,
f

ornate | Kone. 0 Loo Oudewwh, hile

Notary Public / Affiant

My Comm. Exp. September 8, 2028

 

 
